Docket No.

IN THE
SUPREME COURT OF THE UNITED STATES
RONALD E. BYERS,
Petitioner,
v.
COMMISSIONER OF INTERNAL REVENUE.
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI

TABLE OF CONTENTS
Page
July 29, 2020
D.C. Circuit Court of Appeals order,
denying en banc rehearing petition,
Ronald E. Byers v. Commissioner of Internal Revenue

A-l

July 29, 2020
D.C. Circuit Court of Appeals order,
denying panel rehearing petition,
Ronald E. Byers v. Commissioner of Internal Revenue

A-2

April 17, 2020
D.C. Circuit Court of Appeals order,
granting summary affirmance motion,
Ronald E. Byers v. Commissioner of Internal Revenue

A-3

December 3, 2019
U.S. Tax Court order,
reaffirming denial of leave to file decision vacatur motion,
Ronald E. Byers v. Commissioner of Internal Revenue.....

A-5

June 18, 2019
U.S. Tax Court Supplemental Memorandum Opinion,
clarifying on remand Tax Court's post-decision jurisdiction.
Ronald E. Byers v. Commissioner of Internal Revenue........

A-6

USCA Case #15-1100

Document #1854096

Filed: 07/29/2020

Page 1 of 1

ptmtsfr jitaies Olonrt of JVpjxeals
For The District of Columbia Circuit

No. 15-1100

September Term, 2019
USTC-3032-10
Filed On: July 29, 2020

Ronald E. Byers,
Appellant

v.
Commissioner of Internal Revenue,
Appellee

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/si
Daniel J. Reidy
Deputy Clerk

A-J

USCA Case #15-1100

Document #1854095

ptmtefr

Filed: 07/29/2020

Page 1 of 1

(ttourt of

For The District of Columbia Circuit

No. 15-1100

September Term, 2019
USTC-3032-10
Filed On: July 29, 2020

Ronald E. Byers
Appellant
v.
Commissioner of Internal Revenue,
Appellee

BEFORE:

Griffith, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

A-z-

USCA Case #15-1100

Document #1838650

Filed: 04/17/2020

Page 1 of 2

ffinxteb JStates GL&vcrt #f JVppsals
For The District of Columbia Circuit

September Term, 2019

No. 15-1100

USTC-3032-10
Filed On: April 17, 2020
Ronald E. Byers,
Appellant
v.
Commissioner of Internal Revenue,
Appellee

BEFORE:

Griffith, Pillard, and Wilkins, Circuit Judges
ORDER

Upon consideration of the motion for summary affirmance, the response thereto,
and the reply; and the court’s order to show cause filed on January 8, 2020, it is
ORDERED that the order to show cause be discharged. It is
FURTHER ORDERED that the motion for summary affirmance be granted. The
merits of the parties' positions are so clear as to warrant summary action. See
Taxpayers Watchdog, Inc, v. Stanley, 819 F.2d 294, 297 (D.C. Cir. 1987) (per curiam).
The Tax Court did not abuse its discretion in denying appellant’s motion for leave to file
a motion to vacate the Tax Court’s order granting summary judgment.
The Tax Court’s summary judgment order became final upon the Supreme
Court’s denial of appellant's certiorari petition and subsequent petition for certiorari
rehearing in Byers v. C.I.R., No. 14-74 (Oct. 6, 2014 and Dec. 15, 2014), and the Tax
Court therefore lacked jurisdiction to grant a motion to vacate that order at the time it
ruled on appellant’s motion, see 26 U.S.C. § 7481(a)(2)(B), unless an exception for
fraud on the court applies. This court need not decide at this juncture whether it
recognizes such an exception, however, because appellant has not demonstrated that
fraud on the court occurred in this case. See, e.g.. Cobell v. Norton, 334 F.3d 1128,
1148 (D.C. Cir. 2003) (“[Fjraud on the court is a narrow concept, limited to the most
egregious conduct involving corruption of the judicial process itself.”); Greater Boston
Television Corp. v. FCC, 463 F.2d 268, 278 n.16 (D.C. Cir. 1971) (“[Tjhe concept of

fi-3

USCA- Case #15-1100

Document #1838650

Filed: 04/17/2020

Page 2 of 2

ffimteb Jitates (Kourt of JVppeals
For The District of Columbia Circuit

No. 15-1100

September Term, 2019

fraud on the court .. . does not extend to an omission more fairly characterized as a
‘mistake of judgment.’”). Specifically, appellant has not shown that appellee
intentionally misled the Tax Court with respect to the formal assessment status of a
failure-to-pay penalty charged to appellant pursuant to 26 U.S.C. § 6651(a)(3).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

IsI
Manuel J. Castro
Deputy Clerk

A-Y

RMM

UNITED STATES TAX COURT
WASHINGTON, DC 20217

RONALD E. BYERS,
Petitioner,
v.

)
)
)
)

) Docket No. 3032-10 L.
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent

)
)
)

ORDER
Pursuant to the determination of the Court as set forth in its Memorandum
Opinion, T.C. Memo. 2019-76, filed June 18, 2019, and for the reasons set forth
therein, it is
ORDERED that petitioner’s Motion for Leave To File Out of Time Motion
To Vacate Order and Decision, filed August 19,2014, remains denied.

(Signed) John O. Colvin
Judge

Dated: Washington, D.C.
December 3,2019

SERVED Dec 04 2019

T.C. Memo. 2019-76

UNITED STATES TAX COURT

RONALD E. BYERS, Petitioner v.
COMMISSIONER OF INTERNAL REVENUE, Respondent*

Docket No. 3032-10L.

Filed June 18,2019.

Ronald E. Byers, pro se.
Melissa J. Hedtke, John Schmittdiel, Douglas C. Rennie, and Teresa E.
McLaughlin, for respondent.

SUPPLEMENTAL MEMORANDUM OPINION

COLVIN, Judge: This case is before the Court on remand from the U.S.
Court of Appeals for the District of Columbia Circuit with instructions to clarify

‘This opinion supplements our previously filed opinion Byers v.
Commissioner, T.C. Memo. 2012-27.

-2[*2] the legal grounds and reasoning underlying this Court’s January 13, 2015,
order issued by Judge Stephen J. Swift on behalf of this Court denying petitioner’s
motion for leave to file out of time motion to vacate order and decision (motion for
leave). If petitioner’s motion for leave had been granted, the Court would have
filed petitioner’s motion to vacate order and decision (in which petitioner
contended that respondent committed fraud on the Court), lodged August 19,
2014. In response to the question presented by the remand, we conclude that
denial of petitioner’s motion was justified on the grounds that petitioner’s
underlying motion to vacate order and decision lacked merit.
Background
Respondent filed a motion for summary judgment in this collection due
process (CDP) case on May 19,2011. We granted that motion and upheld the
determination of the Internal Revenue Service Office of Appeals allowing
collection by levy of petitioner’s unpaid tax liabilities for tax years 1999-2002.
Byers v. Commissioner. T.C. Memo. 2012-27 (Swift, J.1), affd. 740 F.3d 668
(D.C. Cir. 2014). In accordance with that opinion, on February 13, 2012, the
1 Judge Swift was appointed by President Reagan to serve a 15-year term as
a Judge of the Tax Court beginning on August 16,1983, and was reappointed by
President Clinton to a second 15-year term beginning on December 1, 2000.
Judge Swift retired from active service on September 6, 2007, and from service as
a senior Judge on December 31, 2015.

A-7

-3 [*3] Court granted respondent’s motion for summary judgment and entered
decision in this case.
On March 13, 2012, petitioner filed a motion under Rule 1622 to vacate the
order and decision that accompanied Judge Swift’s opinion. Judge Swift denied
that motion on May 8,2012. On August 9, 2012, petitioner filed an appeal in the
U.S. Court of Appeals for the District of Columbia Circuit from the Tax Court’s
May 8,2012, order denying his March 13,2012, motion. The Court of Appeals
affirmed the order and decision of the Court and denied a petition for rehearing en
banc. Byers v. Commissioner, 740 F.3d 668. On July 16, 2014, petitioner filed a
writ of certiorari with the Supreme Court.
After the Tax Court entered its order and decision, respondent filed a notice
of Federal tax lien against petitioner to collect the same tax liabilities which are at
issue here. Petitioner requested a CDP hearing before Appeals. In a letter dated
January 28, 2014, petitioner disputed the existence and amount of any late
payment additions to tax for 1999-2002. By letter dated May 13, 2014, Settlement
Officer (SO) Joel Mansager replied to petitioner’s January 28, 2014, letter. With
the letter SO Mansager included transcripts and payoff information for each of
2Unless otherwise indicated, section references are to the Internal Revenue
Code, as amended. Rule references are to the Tax Court Rules of Practice and
Procedure.

S5

-4[*4] those tax years. The letter also said that the underlying tax liabilities
remained unpaid and that the failure to pay additions to tax had not been included
with the original assessment but had accrued because petitioner had failed to pay
the tax.
On August 19, 2014, after denial of petitioner’s motion for rehearing en
banc and during the pendency of petitioner’s writ of certiorari, petitioner filed the
motion for leave and lodged a motion to vacate order and decision, in which
petitioner alleged that respondent had obtained a favorable decision from the Tax
Court on respondent’s motion for summary judgment by fraudulently representing
that the failure to pay additions to tax had been assessed and then later disclosing
to petitioner that those additions to tax had accrued but had not been assessed.
The Supreme Court denied petitioner’s petition for writ of certiorari on
October 6, 2014. Petitioner filed a petition for rehearing from the denial of the
writ of certiorari, which was denied on December 15, 2014.
On January 13,2015, Judge Swift denied petitioner’s August 19, 2014,
motion for leave without explanation. On February 5, 2015, petitioner filed with
this Court a motion for withdrawal of the January 13, 2015, order. Judge Swift
denied that motion on February 23, 2015.

-5[*5] On April 14,2015, petitioner appealed to the U.S. Court of Appeals for the
District of Columbia Circuit this Court’s denial of his motion for leave. On
December 14, 2016, the Court of Appeals remanded the case to the Tax Court with
the following instructions: “On remand, the Tax Court is directed to clarify the
legal grounds and reasoning underlying its January 13, 2015 order denying
appellant’s motion for leave to file a motion to vacate.”3
Discussion
A.

Petitioner’s Motion to Vacate Order and Decision Lacked Merit
1.

The Tax Court Has Jurisdiction After a Decision Is Final to Decide
Whether a Party Committed Fraud on the Court

Generally, the Tax Court lacks jurisdiction to vacate a decision once it
becomes final. Lasky v. Commissioner, 235 F.2d 97 (9th Cir. 1956), aff d, 352
U.S. 1027 (1957); Estate of Smith v. Commissioner, 123 T.C. 15, 28 (2004),
vacated, 429 F.3d 533 (5th Cir. 2005); Abatti v. Commissioner, 86 T.C. 1319,
1323 (1986), aff d, 859 F.2d 115 (9th Cir. 1988). However, the Tax Court and
3The remand of this case was not assigned to Judge Swift, who is no longer
serving as a Judge of this Court. The remand states that the Tax Court shall
provide the legal grounds and reasoning underlying “its” January 13, 2015, order.
We take the use of a neuter pronoun by the Court of Appeals to mean that it is
requesting this Court’s explanation from the Court for the denial of petitioner’s
motion for leave. That explanation appears herein. We disagree with petitioner’s
contention that the remand can be satisfied only by providing the personal views
of retired Judge Swift.

4-/o

-6[*6] some Courts of Appeals recognize an exception to the finality rule if there has
been fraud on the court. See, e.g., Drobny v. Commissioner, 113 F.3d 670, 677
(7th Cir. 1997), aff g T.C. Memo. 1995-209; Snow v. Commissioner, 142 T.C.
413, 422 (2014). To establish that this exception applies, a party must show that
the other party engaged in fraudulent conduct that was intended to mislead the
Court and that the fraudulent conduct materially affected the outcome of the case.
Drobny v. Commissioner, 113 F.3d at 678; see also Pasternack v. Commissioner,
478 F.2d 588, 593 (D.C. Cir. 1973) (“Although courts must normally adhere to
statutory commands of finality, such commands are normally read in the light of
an overriding interest of correcting injustice whenever there is fraud on the court
or the integrity of the judicial process or functioning has been undercut.” (fn. refs.
omitted) (citing Denholm & McKay Co. v. Commissioner. 132 F.2d 243 (1st. Cir.
1942), Kenner v. Commissioner, 387 F.2d 689, 691 (7th Cir. 1968), and Greater
Bos. Television Corp. v. FCC, 463 F.2d 268,278 (D.C. Cir. 1971)).4 In order to
find fraud on the court, the party alleging fraud must show that the alleged
improper conduct was an “unconscionable plan or scheme” that was “designed to

4For an example of a case reopened because of fraud on the Court, see
Merriam v. Commissioner. T.C. Memo. 2005-17, supplementing T.C. Memo.
1995-432.

f}"/{

-7[*7] improperly influence the court in its decision”. Drobny v. Commissioner, 113
F.3d at 677 (quoting Kenner v. Commissioner, 387 F.2d at 691).
As of January 13, 2015, when the Tax Court denied petitioner’s motion, the
case had become final. However, according to the caselaw just cited, we may
consider petitioner’s fraud on the Court claim after the case is final.
2.

Prima Facie Case for the Underlying Motion

In deciding whether to grant a motion for leave to file a motion to vacate,
the Court may look through that motion to the underlying motion to decide
whether the movant has established a prima facie case in favor of granting the
underlying motion. Senate Realty Corp. v. Commissioner. 511 F.2d 929 (2d Cir.
1975); Toscano v. Commissioner. 52 T.C. 295, 296 (19691. vacated by 441 F.2d
930 (9th Cir. 1971); Lewis v. Commissioner, T.C. Memo. 2005-205, reconsidered
and superseded by Hartman v. Commissioner. T.C. Memo. 2008-124; Campbell v.
Commissioner, T.C. Memo. 1988-105; Pulitzer v. Commissioner, T.C. Memo.
1987-408. Thus, we next decide whether petitioner has made a prima facie case
that the motion underlying his motion for leave filed August 19, 2014, in which he
contends respondent committed fraud on the Court, should be granted.

-8[*8] 3.

Respondent Did Not Commit Fraud on the Court

In his motion filed August 19,2014, petitioner contends that respondent’s
summary judgment motion constituted fraud on the Court. Petitioner contends
that respondent represented in the declaration of SO Lupe Silva, filed May 19,
2011, which accompanied respondent’s motion for summary judgment that the
Commissioner had assessed the section 6651(a)(3) additions to tax when,
petitioner claims, those additions to tax had not been assessed. Petitioner relies on
a May 13, 2014, letter that he received from an Appeals SO in a companion CDP
hearing involving petitioner’s tax years 1999-2002, which states that respondent
had not assessed those additions to tax.
Petitioner contends that respondent’s attempt to collect the additions to tax
under section 6651(a)(3) without assessment amounted to a fraud on the Court.
Section 6665(a)(1) provides the general rule that additions to tax, additional
amounts, and civil penalties “shall be assessed, collected, and paid in the same
manner as taxes”. Although section 6651(a)(3) requires the use of deficiency
procedures for some additions to tax, section 6665(b) contains an exception to that
general rule. It provides that deficiency procedures “shall not apply to any

-9[*9] addition to tax under section 6651, 6654, or 6655”.5 Instead, these additions
to tax are summarily assessed. Meyer v. Commissioner, 97 T.C. 555, 559-560
(1991). If the additions to tax under section 6651(a)(3) can be summarily
assessed, the fact that they were not assessed along with the deficiency amounts
does not constitute fraud on the Court.
In the answer to amended petition filed in this case, respondent denied
petitioner’s allegations regarding the assessments and stated that “the assessments
Petitioner had the right to challenge did not include interest nor I.R.C. sec.
6651(a)(3).” SO Silva’s certification in the motion for summary judgment
certified the assessment of only the deficiency amounts. It did not refer to the
additions to tax. Respondent sent the final notice of intent to levy to petitioner on
January 21, 2009. This is apparently what petitioner refers to as a “statutory
collection notice”. A table in this notice includes one column stating that
respondent had assessed amounts of tax liability for various years and other
columns stating amounts of penalty and interest for which respondent states
petitioner is liable. Petitioner contends that respondent represented through this
table that the penalty and interest had been assessed. We disagree because the

5However, deficiency procedures apply to the portion of a sec. 6651 penalty
which is attributable to a deficiency. Sec. 6655(b)(1).

A-w

- 10[*10] headings above the interest and penalty amount columns do not include the
word “assessed”.
SO Mansager sent petitioner a letter dated May 13, 2014, which stated in
part: “The payoff information indicates that the failure to pay tax penalty was not
included with the assessment, however it has accrued since you have failed to pay
the taxes.” Petitioner alleges that SO Mansager’s letter informed him for the first
time that the additions to tax had not been assessed. To the contrary, respondent
has been consistent in communicating to petitioner that the additions to tax had
not been assessed. For example, respondent disclosed this fact in the answer to
the amended petition, and the headings on the account summary attached to the
notice of intent to levy do not refer to interest and late-payment additions to tax as
having been assessed. Further, to the extent petitioner reads our 2012 opinion to
say that the Commissioner had assessed the additions to tax, he is mistaken. The
notice of determination dated November 24, 2009, to which petitioner refers, does
not explicitly state that the additions to tax had been assessed. It states: “I
verified through transcript analysis that assessment was made on the applicable
CDP notice periods per IRC § 6201 and the notice and demand for payment letter
was mailed to the taxpayer’s last known address”.

-11 -

[*11] Petitioner points out that respondent’s counsel represented in respondent’s
motion for summary judgment that she had searched the entire record before
concluding that there was no genuine issue of any material fact for trial. Petitioner
alleges that respondent’s counsel “overlooked” respondent’s formal responses to
petitioner’s admission requests and that in one admission response respondent said
the additions had been assessed. Petitioner contends that this (what petitioner
. calls) misinformation provided by respondent caused the Court to overlook that
there was a material dispute of fact and constituted fraud on the Court. Petitioner
has not provided the Court with any documents or plausible information
contradicting the statement by respondent’s counsel that counsel had “reviewed
the administrative file, the pleadings and all written proof submitted” and had
concluded that “there is no genuine issue of any material fact for trial”.
The request for admission and the response are as follows:
18. Petitioner had the right at his CDP hearing to challenge his
liability for the addition to tax assessed against him under I.R.C.
§ 6651(a)(3).
18. Admits
The admission request discusses petitioner’s right to challenge his liability for the
additions to tax assessed. There is no separate admission request stating that the
additions to tax had been assessed.

- 12 [*12] Petitioner alleges in his August 19, 2014, motion that Appeals’ verification
in the notice of determination, which respondent cited in support of respondent’s
motion for summary judgment, found that (1) respondent had assessed the
amounts shown on the final notice of intent to levy and notice of your right to a
hearing and (2) that all the assessments shown on that notice were legally valid.
However, neither the final notice of intent to levy nor the notice of determination
states that respondent assessed additions to tax under section 6651(a)(3).
B.

Conclusion
Petitioner has not shown that respondent intended to conceal information or

mislead the Court or that respondent committed fraud on the Court. Thus,
petitioner failed to establish a prima facie case for granting the motion underlying
his motion for leave, and the motion for leave was properly denied.
To reflect the foregoing,

An appropriate order will be issued.

